                    .




U.S CONSUMER PRODUCT SAFTEY COMMISION




   OFFICE OF THE INSPECTOR GENERAL




    CONSUMER PRODCUT SAFETY RISK
          MANAGEMENT SYSTEM
     INFORMATION SECURITY REVIEW
               REPORT
        Fieldwork: December 2010 to February 2011




               Issued: June 4, 2012
Memorandum

                                                                                Date:            June 5, 2012

TO              Inez Tenenbaum
                Chairman

FROM            Christopher W. Dente!
                Inspector General

SUBJECT         Security Review of the CPSC's Consumer Product Safety Risk Management
                System

The Office of Inspector General has completed its security review of the CPSC's Consumer
Product Safety Risk Management System. A copy of the resulting report is attached.

Management (EXIT and OEX) has been briefed regarding the findings and recommendations of
this audit and given an opportunity to respond to them. Management's response may be found as
an attachment to the audit report. Management generally concurred with the findings of the audit
and either agreed to implement corrective actions regarding those findings or indicated that
corrective action had already been taken.

If you have any questions about this report or wish to discuss it, please feel free to contact me at
301-504-7644 or cdentel@cpsc.gov.



                                                             Christop e
                                                             Inspector General




                     CPSC Hotline: 1-800-638-CPSC(2772)   :::<   CPSC's Web Site http://www.cpsc.gov
                       TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................................ 3
   BACKGROUND ............................................................................................................ 3
   OBJECTIVE ................................................................................................................... 3
   SUMMARY OF FINDINGS .......................................................................................... 4
   RECOMMENDATIONS ................................................................................................ 4
   AUDITEE COMMENTS................................................................................................ 6
INTRODUCTION .............................................................................................................. 7
OBJECTIVE, SCOPE & METHODOLOGY..................................................................... 8
   OBJECTIVE ................................................................................................................... 8
   SCOPE ............................................................................................................................ 8
   METHODOLOGY ......................................................................................................... 9
RESULTS OF EVALUATION ........................................................................................ 11
   SUMMARY .................................................................................................................. 11
   FINDINGS AND RECOMMEDATIONS ................................................................... 11
      FINDING 1: The draft Risk Management Framework strategy has yet to be
      formalized or implemented. ...................................................................................... 11
      FINDING 2: The CPSC has not yet developed an Enterprise Architecture with
      Information Security considerations. ........................................................................ 12
      FINDING 3: Insufficient documentation of the implementation of NIST SP 800-53
      security controls in the CPSRMS SSP. ..................................................................... 13
      FINDING 4: The CPSRMS SSP does not reflect the most current information and
      often contradicts other Security control documents.................................................. 15
      FINDING 5: The CPSRMS POAM does not include all elements required by OMB
      Memorandum 04-25.................................................................................................. 17
      FINDING 6: The CPSRMS Security Categorization Document does not adequately
      justify impact assignments for 10 of the identified information types. .................... 18
      FINDING 7: Insufficient documentation of the analysis disqualifying the non-
      selected information types in the CPSRMS Security Categorization Document. .... 21
      FINDING 8: The CPSRMS SSP does not outline specific Public Access controls in
      place to mitigate the risks associated with allowing external user’s access to
      CPSRMS. .................................................................................................................. 21
APPENDIX I: MANGEMENT RESPONSE .................................................................. 23




                                                                                                                                     2
                             EXECUTIVE SUMMARY

BACKGROUND

The Consumer Product Safety Improvement Act of 2008 (CPSIA), P.L. 110-314, Section
212 requires the Consumer Product Safety Commission (CPSC) to implement a publicly
accessible, searchable database of consumer product incident reports. To meet this
requirement the CPSC developed the Consumer Product Safety Risk Management
System (CPSRMS). The CPSRMS houses personal, proprietary, and confidential data.
As defined by NIST SP 800-18, Guide for Developing Security Plans for Federal
Information Systems, CPSRMS is categorized as a major application. Therefore,
CPSRMS is required to implement specific security controls and complete a Security
Certification and Accreditation (C&A) separate from the CPSC General Support System
(GSS LAN). NIST SP 800-37, Revision 1 Guide for Applying the Risk Management
Framework to Federal Information Systems: A Security Life Cycle Approach, dated
February 2010 provides guidance and best practices for the C&A process that agencies
are required to implement as a mandate of the Federal Information Security Management
Act (FISMA). Consequently, CPSC management has reviewed and validated CPSRMS’s
system security through the performance of a C&A assessment and formally authorized
CPSRMS to operate on January 16, 2011.

To satisfy the NIST SP 800-37 requirements, the CPSC contracted with Communications
Resources Inc. (CRI), an outside IT consultancy to perform the initial categorization,
selection, and implementation of the CPSRMS security controls, and to develop the
CPSRMS System Security Plan (SSP). Other deliverables provided by CRI included:
    • CPSRMS Risk Assessment
    • CPSRMS Security Categorization Document
    • CPSRMS Security Control Implementation Plan (SCIP)
    • CPSC Business Impact Analysis (BIA)

CPSC also contracted with SecureIT, whom is responsible for developing the GSS LAN
SSP and GSS LAN Security Assessment Report (SAR), to perform an independent
security assessment of the CPSRMS implementation and develop the SAR for CPSRMS.
SecureIT would also be responsible for maintaining the CPSRMS SSP and be responsible
for developing the Continuous Monitoring Plan and the Asset Inventory Report.

OBJECTIVE

As required by Section 205(a)(1) of the Consumer Product Safety Improvement Act
(CPSIA) of 2008, the Office of Inspector General (OIG) is required to conduct reviews
and audits to assess the CPSC’s information technology architecture and systems and the
development of the public database. In order to determine if the availability,
confidentiality, and integrity of data housed in CPSRMS is adequate, agency officials
must perform a C&A on the system. As such, the objective of this evaluation was to


                                                                                      3
review the application of the Risk Management Framework, as defined in NIST 800-37,
to the CPSC’s implementation of the CPSRMS.

SUMMARY OF FINDINGS

At the time fieldwork was performed (December 2010 through February 2011), there
were several inconsistencies and weaknesses in the C&A assessment of the CPSRMS.
These weaknesses stemmed primarily from a lack of mature organizational processes and
procedural documents required to ensure the adequate governance of the C&A process.
In addition, management’s lack of internal resources played a significant part in the
weaknesses identified in the C&A assessment. Our findings include the following:

1. The draft Risk Management Framework strategy has yet to be formalized or
   implemented.

2. The CPSC has not yet developed an Enterprise Architecture with Information
   Security considerations.

3. There is insufficient documentation of the implementation of NIST SP 800-53,
   Revision 3 Recommended Security Controls for Federal Information Systems and
   Organizations, dated August 2009, security controls in the CPSRMS SSP.

4. The CPSRMS SSP does not reflect the most current information and often contradicts
   other Security control documents.

5. The CPSRMS Plan of Action and Milestones (POAM) does not include all elements,
   required by Office of Management and Budget (OMB) Memoranda 04-25, FY 2004
   Reporting Instructions for the Federal Information Security Management Act, dated
   August 23, 2004.

6. The CPSRMS Security Categorization Document does not adequately justify impact
   assignments for 10 of the identified information types.

7. There is insufficient documentation of the analysis disqualifying the non-selected
   information types in the CPSRMS Security Categorization Document.

8. The CPSRMS SSP does not outline specific Public Access controls in place to
   mitigate the risks associated with allowing external user’s access to CPSRMS.

RECOMMENDATIONS

Once CPSC addresses the aforementioned issues, many of the subsequent C&A tasks will
become significantly less cumbersome to administer, and the process will become more
controlled and transparent. To assist the CPSC in addressing the weaknesses identified
above, we are providing the following recommendations:



                                                                                        4
1. Identify the participants of the CPSC Risk Executive Council and define specific
   tasks/milestones for implementing the proposed Risk Management Framework.
   CPSC Senior Management should then define a methodology for developing and
   establishing a formal organizational tolerance for risk in the Risk Management
   Framework.

2. Develop an Enterprise Architecture that includes a comprehensive IT Security
   Architecture using the CIO Counsel’s guidance (FEA-Security-Privacy-Profile-v3-9-
   30-2010) and incorporate this into the Security Control Documents. Further, all the
   security controls, including the NIST SP 800-53 required controls, should be mapped
   to the Enterprise Architecture/Information Security Architecture to provide a
   comprehensive view of the security control relationships.

3. Fully document the implementation of the security controls, including the
   implementation of the sub-controls, in the CPSRMS SSP with sufficient detail to
   facilitate the assessment of individual controls.

4. Update the CPSRMS SSP to be the single authoritative system security document.
   The update of the document should include the correct go-live date and the latest
   understanding of the current state of CPSRMS Security. As such, the CPSC should:
      a. Revise and update the CPSRMS SSP and the other security control documents
          to identify and reconcile all inconsistencies between said documents.
      b. Management should perform an assessment over the independent contractor
          control assessments to determine which position the CPSC will support.
          Upon completion of the assessment, the CPSRMS SSP should document
          CPSC's current position in addition to the justification for any positions held
          in opposition to SecureIT.
      c. Update the CPSRMS SSP to include the results of other technical security
          reviews.
      d. Reassess the common, hybrid, and system specific control significations to
          provide accurate descriptions of controls in the CPSRMS SSP.
      e. Re-scan the network to define all devices with the CPSRMS System
          Boundary. Document the results of this scan in the SSP.

5. Update the POAM to include the missing information, as required by OMB M-4-25.

6. Perform an assessment to ensure the adequate categorization of Information Types.
   The logic for categorizing the Information Types as “High”, “Moderate”, or “Low”
   should be consistent with the guidance provided in NIST SP 800-60, Guide for
   Mapping Types of Information and Information Systems to Security Categories: (2
   Volumes) - Volume 1: Guide Volume 2: Appendices, dated August 2008.

7. An analysis should be performed to ensure that all of the Information Types outlined
   in the NIST 800-60 framework were appropriately included in or excluded from the
   CPSRMS Security Categorization document.



                                                                                          5
8. Define the specific Public Access controls in place/planned, or reference the
   document defining these controls within the CPSRMS SSP.

AUDITEE COMMENTS

The auditee responses have been included as an appendix to this report. The auditees
concurred with the majority of our findings and recommendations and indicated that
work has been completed or is already in progress to address many of the deficiencies
found.




                                                                                        6
                                   INTRODUCTION

The Consumer Product Safety Commission Public Database

The Consumer Product Safety Improvement Act of 2008 (CPSIA), P.L. 110-314, Section
212 requires the CPSC to implement a publicly accessible, searchable database of
consumer product incident reports. Pursuant to section 6A(a)(3) of the CPSIA, the
database must be established within the 18-month period following the CPSC’s
submission of a plan to Congress regarding the Database implementation under section
6A(a)(2). The CPSC submitted this plan to Congress on September 10, 2009. Therefore,
the Database launch date was set for March 11, 2011.

The Consumer Product Safety Risk Management System

The CPSC contracted with InfoReliance (IR) on August 18, 2008, to begin the
development of a solution to meet this legislative requirement for a public database. IR
customized one of its Commercial-Off-The-Shelf (COTS) products to meet the
requirements defined by the CPSIA/CPSC management and developed
SaferProducts.gov. The purpose of this tool is to provide a single, central location where
consumers can report incidents and search for prior incidents/recalls. Additionally, this
tool will provide the manufacturers of the products in question with an opportunity to
comment on actions taken to remediate the product safety concerns, as well as rebut,
correct, and add additional precision to such reports. Moreover, this tool is an integral
part of the overall IT Modernization effort, termed CPSRMS. As such, it is the
expectation of the CPSC that the implementation of CPSRMS is to occur over the course
of the next 2 to 3 years at the CPSC.

The CPSRMS architecture includes a core development framework, in addition to, three
key applications using the framework: Consumer/Public Portal, Industry Partner Portal,
and Incident Management Control Center (IMCC). By customizing an existing COTS
product, the CPSC does not have to develop and support an in-house solution and has the
option to draw from an outside pool of experts for future support needs. However, the
challenge with this type of implementation is integrating the COTS tool with the legacy
solutions already in place at the CPSC. Therefore, in order to ensure the validity of the
IR architectural documentation and identify security vulnerabilities associated with the
overall CPSRMS architecture, which includes the integration between the IR solution and
the legacy systems already in place, the CPSC contracted with Aspect Security on June
29, 2010, to perform an independent architectural security review. The scope of this
review included the custom application components and related controls developed by
the CPSC. Analysis of these custom application components and controls focused on the
areas of Identity Management and Authentication, Session Management, Access Control,
Input Validation and Output Encoding, and Sensitive Data Protection.




                                                                                         7
                   OBJECTIVE, SCOPE & METHODOLOGY

OBJECTIVE

The objective of this review was to assess the application of the Risk Management
Framework, as defined in NIST 800-37, to the CPSRMS implementation. This was to
ensure the agency performed all of the tasks required to ensure the availability,
confidentiality and integrity of the data housed in CPSRMS.

SCOPE

This evaluation consisted of review of CPSC’s C&A assessment of CPSRMS against the
Risk Management Framework, as outlined in NIST SP 800-37, Revision 1 Guide for
Applying the Risk Management Framework to Federal Information Systems: A Security
Life Cycle Approach, dated February 2010 and the requirements of Section 212 of the
CPSIA. As such, our review included the following processes within the boundaries of
the CPSRMS solution:




                                                                                    8
METHODOLOGY

This review is not an audit, thus it was not conducted in accordance with generally
accepted government auditing standards. As such, our review was conducted in
accordance with Quality Standards for Inspections and Review. The performance of
fieldwork occurred from December 2010 to February 2011 at the CPSC’s headquarters
located in Bethesda, Maryland. In order to accomplish our objective, we reviewed the
requirements of the CPSRMS implementation through obtaining and reviewing the key
reports developed by CPSC management and their independent contractors,
documenting the CPSRMS implementation and related security architecture.
Throughout our review of supporting documents obtained, we held key discussions
with the Office of Information and Technology’s (EXIT) Chief Information Officer,
Division of Policy and Planning (ITPP) Director, Information Systems Security Officer,
and relevant members of their staffs.
 The principle criteria used for this review included:

   •   The Consumer Product Safety Improvement Act of 2008, P.L. 110-314, Section
       212

   •   Federal Information Security Management Act of 2003, Title III of the E-
       Government Act of 2002, P.L. 107-347

   •   OMB Circular A-130, Transmittal Memorandum #4, Management of Federal
       Information Resources, dated November 28, 2000

   •   OMB Memoranda 04-25, FY 2004 Reporting Instructions for the Federal
       Information Security Management Act, dated August 23, 2004

   •   NIST SP 800-37, Revision 1 Guide for Applying the Risk Management
       Framework to Federal Information Systems: A Security Life Cycle Approach,
       dated February 2010

   •   NIST SP 800-39 (Draft), Managing Information Security Risk: Organization,
       Mission, and Information System View, dated March 2011

   •   NIST SP 800-53, Revision 3 Recommended Security Controls for Federal
       Information Systems and Organizations, dated August 2009

   •   NIST SP 800-53A, Revision 1 Guide for Assessing the Security Controls in
       Federal Information Systems and Organizations, Building Effective Security
       Assessment Plans, dated June 2010

   •   NIST SP 800-60, Guide for Mapping Types of Information and Information
       Systems to Security Categories: (2 Volumes) - Volume 1: Guide Volume 2:


                                                                                         9
    Appendices, dated August 2008

•   NIST SP 800-70, National Checklist Program for IT Products – Guidelines for
    Checklist Users and Developers, February 2011

•   FIPS 199, Standards for Security Categorization of Federal Information and
    Information Systems, dated February 2004

•   FIPS 200, Minimum Security Requirements for Federal Information and
    Information Systems, dated March 2006




                                                                                  10
                            RESULTS OF EVALUATION

SUMMARY

Overall, we found several inconsistencies and weaknesses in the way the CPSC executed
the C&A process of CPSRMS. These weaknesses stemmed primarily from a lack of
organizational resources at the time of CPSRMS implementation; thus, resulting in the
heavy reliance on independent contractors for the development and implementation of
CPSRMS. Further, the lack of mature organizational processes and procedural
documents required to ensure the adequate governance of the C&A process also
contributed to the inconsistencies and weaknesses found.


FINDINGS AND RECOMMEDATIONS

FINDING 1: The draft Risk Management Framework strategy has yet to be
formalized or implemented.

A Risk Management Framework has been drafted, but not been implemented. As such,
the CSPC has not formally implemented a Risk Executive (function). The CPSC
Security team documented the CPSC Risk Management Framework based on the NIST
SP 800-39 (Draft), Managing Information Security Risk: Organization, Mission, and
Information System View, dated April 2008. NIST SP 800-39 outlined the proposed
approach to addressing risk from an organizational perspective and it addresses most of
the NIST SP 800-37 requirements. The implementation of Risk Management Framework
and the establishment Risk Executive (function) did not occur due to a lack of resources
available to perform the required duties and a lack of management support for the
creation of these organizational roles. Consequently, the tasks required in NIST SP 800-
37 and NIST SP 800-39 are not being performed. Thus, there is a strong likelihood that
the agency has not assigned the correct amount of effort/ resources to identifying,
prioritizing, and mitigating agency risks.

Moreover, the CPSC did not document one of the topics that NIST SP 800-37 requires in
the Risk Management strategy – the Organizational Risk Tolerance. Per CPSC
management, the Organizational Risk Tolerance has not been defined or documented.
For C&A purposes, CPSC management informally tied the Agency Organizational Risk
Tolerance to the CPSRMS system categorization of “Moderate.” The system
categorization of “Moderate” was defined using FIPS 199, Standards for Security
Categorization of Federal Information and Information Systems, dated February 2004.
Management also documented the level of risk acceptable for CPSRMS to operate in the
Authorization to Operate (ATO) document. The ATO document states that CPSRMS
will not be authorized to operate if any “high-impact” security weaknesses are identified
and unmitigated. The CPSRMS POAM listing is where security weaknesses are
documented and assigned impact levels. This listing is derived from several assessments,
including the CPSRMS SSP, SAR, and various technical evaluations.

                                                                                      11
Recommendations:

1. Identify the participants in the CPSC Risk Executive Council, and then begin the top-
   down and bottom-up process of developing a risk management organization. A top
   down approach to developing a risk management organization requires senior
   management to identify the participants of the Executive Risk Council. A bottom up
   approach to developing the risk management organization requires the Executive Risk
   Council to identify the resources responsible to provide the relevant risk information
   within the organization. Additionally, require these resources, as outlined in the Risk
   Management Framework, to begin taking on the risk management responsibilities
   assigned to them.

2. Define specific tasks and milestones associated with implementing the proposed Risk
   Management Framework. Additionally, implement a process to track and quantify
   the aggregate risks from all Information Systems (e.g., a risk heat map) and include
   this procedure in the Risk Management Framework. This should be lead by the Risk
   Executive Function and tied to the Enterprise Architecture.

3. Senior CPSC management (e.g., the Risk Executive Function) should define a
   methodology for developing the risk tolerance for the CPSC and formally establish an
   organizational tolerance for risk in the Risk Management Framework. The risk
   tolerance should be communicated and guidance provided to appropriate agency
   resources on how risk tolerance impacts ongoing decision making activities, as
   recommended by NIST SP 800-39 (Draft). Moreover, update the Risk Assessment to
   include documentation of the risk tolerance and used to justify the ATO decisions
   going forward.


FINDING 2: The CPSC has not yet developed an Enterprise Architecture with
Information Security considerations.

The CPSC has not yet developed an Enterprise Architecture with Information Security
considerations; therefore, the information types and security controls have never been
mapped to the Enterprise Architecture. This is due to the amount of effort required to
document the Enterprise Architecture and the limited number of agency resources
assigned to this effort. This has lead to the CPSC’s inability to document properly the
implementation of system-specific and hybrid security controls within the information
system while taking into account specific technologies and platform dependencies.
Additionally, the CPSRMS SSP states that the Information Security and Enterprise
Architecture was planned to be implemented for FY 2010; however, that deadline has
passed, and this had not yet been accomplished. Without a comprehensive Enterprise
Architecture, entire enterprise components (Segment and Solution Architectures) may go
unidentified, and the weaknesses associated with these enterprise components may go un-
remediated due to this lack of mapping and visibility.



                                                                                       12
Recommendations:

Develop an Enterprise Architecture that includes a comprehensive IT Security
Architecture using the CIO Counsel’s guidance (FEA-Security-Privacy-Profile-v3-9-30-
2010) and incorporate this into the relevant Security Control Documents. Additionally,
all the security controls, including the controls required by NIST SP 800-53, Revision 3
Recommended Security Controls for Federal Information Systems and Organizations,
dated August 2009, should be mapped to the Enterprise Architecture/Information
Security Architecture to provide a comprehensive view of the security control
relationships. CPSC can accomplish this through the development of Segment
Architectures based on the primary CPSC mission objectives and business processes.
Once the definition of segments occurs, a Solution Architecture should be designed for
each of the individual Segments. The Solution Architectures should include details that
define each of the related security controls, including those defined in NIST SP 800-53.
The Solution Architecture should also include mapping to the other Solution and
Segment Architectures and with this view, controls should be classified as “Common,”
“Hybrid,” or “System Specific.” For controls defined as “Hybrid,” these controls should
be included in all associated Solution/Segment Architectures to ensure that the control
components are properly mapped to each of the participating systems. As for all controls
defined as “Common,” these controls should be included (or referred to) in each of the
associated Solution/Segment Architectures to provide a full view of the security of each
of the Solutions and Segment Architectures. In addition, to assign priority and criticality
to each of the IT Systems in terms of “Confidentiality,” “Integrity,” and “Availability,”
the use of Enterprise Architecture is appropriate, and this process is not defined in any of
the other Security Control Documents.

To assist management in categorizing Information Types and their associated Information
Systems in terms of their impact on Confidentiality, Availability, and Integrity, the use of
the Enterprise Architecture is appropriate. The Information Types should be defined in
the Information Catalog section of the Business Architecture. Additionally, a section in
this catalog should be included to categorize this impact in both mission continuity terms
and NIST terms as these two views differ, but they are both important to management
from a planning and control perspective.


FINDING 3: Insufficient documentation of the implementation of NIST SP 800-53
security controls in the CPSRMS SSP.

The implementation of the NIST SP 800-53 security controls did not include sufficient
detail of implementation in the CPSRMS SSP. This was due to lack of management
oversight of the CRI contract and management not effectively enforcing the stipulations
set forth in the CRI Statement of Work. Without sufficient detail, the traceability to the
decisions made prior to and after the deployment of the information system, as required
by NIST SP 800-37, may not be possible. As such, we noted the following:



                                                                                          13
   a) Individual documentation of the sub-controls and their implementation was not
      included; therefore, the CPSRMS SSP was unable to describe “the intended
      application of each control in the context of the information system with sufficient
      detail to enable a compliant implementation of the control.” Moreover, the
      control developer/implementer did not provide a description of the functional
      properties of the control with sufficient detail to permit analysis and testing of the
      control, as required by NIST 800-53. The implementation description included a
      description of the finding, if the control was deemed to be not fully compliant, or
      a high-level description of the control, if it was deemed to be in place; however,
      the control descriptions were not defined in terms of “Planned Inputs,” “Expected
      Behavior,” and “Expected Outputs,” as required. Further, it was noted that a
      description that might be used to document “Minimum Assurance Requirements”
      was not documented. Although the SCIP documented unimplemented controls in
      these terms, it contains only 12 security controls. However, there were 86
      “Planned,” “Partially Compliant,” or “Noncompliant” controls that appeared in
      the SSP and 47 “Other than Satisfied” controls that appeared in the CPSRMS
      SAR. Additionally, the CPSRMS SARs did not include sufficient descriptions of
      any of the controls considered fully implemented.

   b) Four controls: PM-10, SI-10, AU-9, and IA-8, were defined, as “Partially
      Compliant” in the CPSRMS SSP, but did not have an associated implementation
      strategy documented in the CPSRMS SSP; and were not separately documented
      in the SCIP or Risk Assessment. Instead, where this information should have
      been documented, the signification “None” appeared.

   c) The documentation regarding tailoring of the baseline security controls, by
      applying scoping, parameterization, and compensating control guidance, was
      incomplete. For example, parameterization details such as configuration
      parameters; session timeout; registry settings; account, file, and directory settings
      (i.e. permissions, and settings for services, ports, protocols, and remote
      connections) were not documented in the CPSRMS SSP. In addition, guidance on
      how the agency plans to employ compensating controls was not documented in
      the CPSRMS SSP.

   d) The documentation for the justification for adding 10 supplemental controls to the
      CPSRMS SSP was incomplete. As NIST SP 800-53 provisions for a moderate
      impact system did not require these controls, OMB A-130 states that the agency
      must “Describe each occasion the agency decides to employ standards and
      guidance that are more stringent than those promulgated by NIST to ensure the
      use of risk-based cost-effective security controls for non-national security
      applications.”

Recommendations:

1. Fully document the implementation of the security controls, including the
   implementation of the sub-controls, in the CPSRMS SSP with sufficient detail to

                                                                                          14
   facilitate the assessment of individual controls. This includes documenting specific
   actions that will be required to perform the control, as well as determining whether to
   accept that the control is correctly designed and operating effectively by defining the
   Minimum Assurance Requirements. The CPSRMS SAR format is a more effective
   format to accomplish this than the one currently being used for the CPSRMS SSP.

2. Define all security controls assessed in the CPSRMS SSP/SAR assessments in terms
   of “Planned Inputs” (including cost and resources required), “Expected Behavior,”
   and “Expected Outputs” within the CPSRMS SSP, SCIP, or Risk Assessment. If this
   is not to be documented directly in the text of the CPSRMS SSP, then the document
   that has this information should be included as an Appendix in the CPSRMS SSP to
   provide adequate traceability for decisions made prior to and after the implementation
   of CPSRMS.

3. Document the cost-benefit analysis for adding each of the supplemental NIST SP
   800-53 controls. Additional explanatory details should be added to the CPSRMS SSP
   to justify the additional 10 controls.

4. Add control parameters to the control descriptions in the SSP, where applicable.

5. Draft an implementation plan for each of the CPSRMS security controls, as well as
   for the four “Planned” controls identified without a planned implementation strategy
   (PM-10, SI-10, AU-9, and IA-8). The CPSRMS SSP should document the planned
   implementation strategy. This may be accomplished by updating the SCIP to include
   all controls identified in the CPSRMS SSP and CPSRMS SAR as “Other than
   Satisfied,” “Planned,” “Partially Compliant,” or “Noncompliant.”

6. All controls that were considered “Other than Satisfied,” “Planned,” “Partially
   Compliant,” or “Noncompliant” as per the SSP or SAR should be included on the
   POAM or have the justification for their exclusion from the POAM documented.


FINDING 4: The CPSRMS SSP does not reflect the most current information and
often contradicts other Security control documents.

The CPSRMS SSP does not reflect the most current information and often contradicts
other Security control documents. The disagreement and inconsistencies amongst the
security control documents was attributed to management’s inability to establish a
methodology to reconcile the divergence in the reporting styles of the two vendors, who
performed and documented the assessments. For example, each vendor used different
criteria to define “Common,” “Hybrid” and “System Specific” controls, as well as used
different criteria to assess the compliance of the required NIST controls. Management
did not know of the differences until notification by the OIG. Consequently, this has lead
to an incomplete/inaccurate representation of the CPSRMS security profile and a general
lack of consistency between the security control documents. For example, we noted the



                                                                                        15
following:

   a) The CPSRMS SSP states that CPSRMS “will be operational in October 2010”
      and the launch at the time of fieldwork was set for March 11, 2011.

   b) Twenty devices identified in the CPSRMS system boundary as part of the
      SecureIT Inventory Assessment were not included in the CPSRMS SSP.

   c) The CPSRMS SSP does not include the vulnerabilities identified as part of the
      Security Assessment Report and other technical assessments (e.g., assessments
      performed by Aspect Security)

   d) The CPSRMS SSP, developed by CRI, does not define “Common” controls the
      same way as Secure IT's developed CPSRMS SAR or the GSS LAN. There are
      17 System Specific/Hybrid controls assessed and defined in the SSP by SecureIT,
      as part of their independent validation of the implementation of NIST SP 800-53
      security controls, and documented in the CPSRMS SAR as “System Specific” or
      “Hybrid” controls. Instead, these controls were defined as “Common” and were
      tested and documented as part of the GSS LAN SAR.

   e) SecureIT’s original assessment of SC-14 was “Not Compliant,” which was
      documented (although never subsequently updated after its reassessment) in the
      GSS LAN SSP. Then, after some remediation, SC-14 was reassessed as part of
      the CPSRMS SAR process and it was deemed “In Place,” which is the position
      that management holds. However, CRI holds a different position and considers
      this control to be “Partially Compliant,” as is documented in the CPSRMS SSP,
      even after the control reassessment. Furthermore, management has not
      documented which position it supports along with their justification for holding
      this position.

   f)    Three controls: SI-03, SC-02, and SC-23, which were identified on the SAR as
        “Satisfied” were identified on the SCIP, either as “Planned,” or “Solution
        Identified” but not implemented. Moreover, the CPSRMS SSP identified these
        three controls as either “Noncompliant” (SI -03) or “Partially Compliant” (SC-02
        and SC-23).

Recommendations:

1. Update the SSP to include the correct go-live date and to reflect the latest
   understanding of the current state of CPSRMS security. As such, CPSC should
   perform the following:

        a. Reconcile the CPSRMS SSP with the other security control documents (e.g.,
           CPSRMS SAR, GSS LAN SAR, SCIP, Security Categorization Document,
           and Risk Assessments), to identify all variances and update the documents to



                                                                                         16
           present one consistent “snapshot” of system security.

       b. Management should also perform an assessment to determine which position
          it supports (with significant weight given to the independent assessors) and
          justify/document their position in the SSP so that the SSP can be the single,
          authoritative security document for CPSRMS.

       c. Additionally, to support the objective of the CPSRMS SSP becoming the
          single, authoritative security document for CPSRMS, updates to the SSP
          should include the results of the related SARs and other technical security
          reviews (e.g., Aspect Security reviews).

       d. Reassess the “Common,” “Hybrid,” and “System Specific” control
          significations, and update the SSP to include an accurate description of
          controls in addition to the justification for each of the control significations.

       e. The network should be re-scanned to define all of the devices within the
          CPSRMS System Boundary and the results of this scan should be included in
          the SSP. Moreover, management should reassess any additional controls
          required because of the discoveries made by this scan for proper
          implementation and document the results of this assessment in the SSP, if
          applicable.

2. A description of how CPSRMS is integrated into the Enterprise Architecture, which
   should include the Information Security Architecture, should be documented in the
   CPSRMS SSP.

3. Update the POAM to reflect the changes made to the updated SSP, where applicable.


FINDING 5: The CPSRMS POAM does not include all elements required by OMB
Memorandum 04-25.

The POAM does not include all OMB M-4-25 required components. It was noted that
the CPSC’s POAM process is in an immature state; thus, resulting in incomplete
implementation. With incomplete implementation of the POAM, vulnerabilities may not
be properly tracked and reported, leading to a lack of effective and timely remediation of
the known issues. We noted the following required components omitted from the
POAM:

   •   milestone change records and related documentation to justify the changes;
   •   estimated resources used for the remediation effort and the related justification;
   •    justification for scheduling estimates and;
   •   estimated cost with its related justification and the funding source.



                                                                                              17
Additionally, the POAM includes a field to define specific tasks and milestones;
however, this field currently is not being utilized. Therefore, the specific tasks set forth
to accomplish this remediation are not documented. Furthermore, the only dates that are
defined in the POAM are the start, due, and completion dates for the issue as a whole;
thus, the POAM does not define due dates for individual milestones.

Recommendation:

Update the POAM to include the missing information.


FINDING 6: The CPSRMS Security Categorization Document does not adequately
justify impact assignments for 10 of the identified information types.

The Categorization Document does not adequately justify impact assignments for 10 of
the identified information types, as stipulated by NIST SP 800-60, Guide for Mapping
Types of Information and Information Systems to Security Categories: (2 Volumes) -
Volume 1: Guide Volume 2: Appendices, dated August 2008. For example, OIG found
that the “Corrective Action” information type was categorized as “Low” in terms of
“Availability.” However, the assignment of this signification was justified in the text of
the report using the same logic that was used to raise the “Population Health Management
and Consumer Safety” information type from “Low” to “Moderate.” As for the reason
for these discrepancies, the agency did not adequately document the justification for the
impact assignments for the identified information types. Thus, there is a possibility that
the impact assignments are inaccurate, causing an inaccuracy in the solution’s overall
impact rating. If the overall impact rating is inaccurate, the amount of effort to protect
the solution may not be commensurate with the risk posed by the solution to the agency
assets and mission.

In addition, it was noted the Categorization document states: “Further analysis of data
gathered as part of the development of the conceptual architecture and discussions with
CPSC is required to establish special factors to raise or lower the impact levels of the
security objectives”; and no additional work has been performed yet.

Please see table below for details surrounding each of the discrepancies.


                                                                  Appropriate
                                                Impact Assigned NIST SP 800-60
 Information                                         in the          Impact
    Type        Language in Categorization       Categorization Assessment based
  Category                Document                 Document     on this language
Corrective   Confidentiality: Manufacturers and Low             Moderate
Action       consumers will provide corrective
             actions for the various products.
             The protection of confidentiality

                                                                                          18
                 for this information type has a low
                 impact on CPSC, unless the
                 consumer does not want to be
                 identified.
Corrective       Availability: Much like the         Low   High
Action           Population Health Management
                 and Consumer Safety Information
                 Type, users will expect this
                 information to be available 24/7.
                 This is a unique situation where
                 the impact on the CPSC could be
                 severe if the information is not
                 available in a timely manner.
Congressional    Confidentiality: This information Low     Moderate
Liaison          may not be made available to the
                 public unless through the public
                 relations information type. If this
                 is CPSC/congressional
                 information, then this information
                 will have a serious impact if
                 confidentiality is compromised. If
                 this was a reporting of public
                 record then this information would
                 be made available to the public and
                 have a low impact.
Congressional    Integrity: The integrity of this    Low   Moderate
Liaison          information will be important,
                 regardless of whether it is
                 disclosed publicly or remains
                 internal to CPSC. The impact of a
                 compromise of integrity would
                 have a serious impact.
Legal            Confidentiality: The Office of the Low    Moderate
Prosecution      General Counsel oversees Legal
and Litigation   Prosecution and Litigation Type
                 information and may disclose only
                 a portion of the information to the
                 public. The unauthorized
                 disclosure of this information
                 would have a serious impact on the
                 CPSC and require protection.
Legal            Integrity: The integrity of this    Low   Moderate
Prosecution      information, that is the
and Litigation   unauthorized modification of legal
                 prosecution and litigation
                 information, would also have a

                                                                      19
                 serious adverse impact on the
                 CPSC and impede the case
                 management system processes.
General          Integrity: The integrity of this        Low        Moderate
Purpose Data     information is very important
and Statistics   because it is used to perform
                 statistical analysis and is used for
                 decision support analysis. The
                 unauthorized change or
                 modification of this data would
                 have a serious impact on the
                 CPSC.
General          Availability: Because this              Low        Moderate
Purpose Data     information primarily would be
and Statistics   used during business hours, the
                 availability of this data would be
                 important and have a serious
                 impact on the CPSC from 6 a.m.–8
                 p.m.; but if large statistical
                 analyses are run overnight, then
                 the data may be required to be
                 available 24/7.
Intellectual     Integrity: The integrity of this        Low        Moderate
Property         information must be protected,
Protection       especially if it is used for litigation
                 purposes. The compromise of
                 integrity for this information type
                 could have a serious impact on the
                 CPSC.
Population       Integrity: The compromise of the Low               Moderate
Health           integrity of this information type
Management       could have a serious impact on the
and Consumer     CPSC, a manufacturer, and a
Safety           manufacturer’s public image if the
                 information is not correct. It is
                 critical that this information is
                 accurate.

Recommendation:

Perform an assessment to ensure adequate categorization of Information Types and that
the logic for categorizing the Information Types as “High,” “Moderate,” or “Low” is
consistent with the guidance provided in NIST SP 800-60.




                                                                                        20
FINDING 7: Insufficient documentation of the analysis disqualifying the non-
selected information types in the CPSRMS Security Categorization Document.

The Categorization Document contained justification of the selected information types
that were chosen; however, the documentation of the analysis disqualifying the non-
selected information types was omitted. Moreover, the Categorization document
states:“At this point in the system lifecycle, it is still unclear whether the identified
information types are appropriate and part of the CPSC vision for CPSRMS and its
concept of operations” and no additional work, as yet, has been performed. This
occurred, due to a lack of management oversight of the CRI contract and to management
not effectively enforcing the stipulations set forth in the CRI Statement of Work. The
CPSRMS solution was assigned a “provisional” system impact rating based on the
assessment of each of the selected information types documented in the Categorization
document. Therefore, any missing or incomplete information in the assessment of these
information types, although unlikely, may lead to an inaccurate system impact rating and
consequently, may lead to the inaccurate selection of the security controls required by
NIST SP 800-53.

Recommendation:
Perform an analysis, as the Categorization document suggests, ensuring that all of the
Information Types outlined in the NIST SP 800-60 framework were appropriately
included or excluded. Include documentation of this analysis in the Categorization
documentation, along with the justification for including and excluding each of the
Information Types chosen. Moreover, this analysis should be tied to the Enterprise
Architecture. Additionally, CPSRMS’s overall Security Impact assignment should be
formalized once this NIST SP 800-60 assessment is completed.


FINDING 8: The CPSRMS SSP does not outline specific Public Access controls in
place to mitigate the risks associated with allowing external user’s access to
CPSRMS.

The CPSRMS SSP does not outline specific Public Access controls in place to mitigate
the risks associated with allowing external user’s access to CPSRMS. OMB A-130,
Transmittal Memorandum #4, Management of Federal Information Resources, dated
November 28, 2000 states that “where an agency’s application promotes or permits
public access, additional security controls shall be added to protect the integrity of the
application and the confidence the public has in the application. Such controls shall
include segregating information made directly accessible to the public from official
agency records.” This is attributable to a lack of management oversight of the CRI
contract, and to management not effectively enforcing the stipulations set forth in the CRI
Statement of Work. Consequently, without effective controls in place governing Public
Access, a public facing information system may provide an entry point for malicious
users to the system in an unintended manner (ex. intentionally damage the system or
obtain access to sensitive data). Moreover, this lack of control may also allow well-



                                                                                         21
meaning users to inadvertently damage information system or access sensitive
information.

Recommendation:

Define the specific Public Access controls in place/planned, or reference the document
defining these controls within the CPSRMS SSP.




                                                                                         22
APPENDIX I: MANGEMENT RESPONSE




 PAGE INTENTIONALLY LEFT BANK




                                 23
